No. 20-427
In the

Supreme Court of the United States
__________________
POLK COUNTY,
Petitioner,
v.
J.K.J. AND M.J.J.,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

__________________
BRIEF OF AMICI CURIAE THE NATIONAL
ASSOCIATION OF COUNTIES, THE NATIONAL
LEAGUE OF CITIES, THE U.S. CONFERENCE OF
MAYORS, THE INTERNATIONAL CITY/COUNTY
MANAGEMENT ASSOCIATION, AND THE
INTERNATIONAL MUNICIPAL LAWYERS
ASSOCIATION IN SUPPORT OF THE PETITIONER

__________________
LISA SORONEN
STATE AND LOCAL LEGAL CENTER
444 N. Capitol St. NW
Suite 515
Washington, DC 20001

JOHN M. REEVES
Counsel of Record
REEVES LAW LLC
3703 Watson Road
St. Louis, MO 63109
(314) 775-6985
reeves@reeveslawstl.com

AMANDA KELLAR
INTERNATIONAL MUNICIPAL
LAWYERS ASSOCIATION, INC.
51 Monroe Street, Suite 404
Rockville, MD 20850
Counsel for Amici Curiae

November 2, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICI CURIAE. . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF THE ARGUMENT . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

Absent the Court’s review, the Seventh
Circuit’s decision ensures that federal courts
will have significantly increased control over
municipalities’ daily operations, thus
undermining the Constitution’s federalist
structure. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. The federalism issues here are
exceptionally important, as §1983 cannot
be used as a vehicle to obviate the
Constitution’s federalist structure . . . . . . 5
B. The Seventh Circuit’s rationale extends to
every facet of municipal government . . . . 9

II.

This case presents an ideal vehicle to resolve
the tension between Canton’s theoretical
single-incident failure-to-train claim and the
federalism principles underlying Monell’s
admonishment against respondeat superior
liability. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
III.

The en banc opinion imposes a negligence
standard upon §1983 claims under Monell,
and in effect turns them into common law
tort claims. It should be up to the states
themselves to determine whether to allow
such claims. . . . . . . . . . . . . . . . . . . . . . . . . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

iii
TABLE OF AUTHORITIES
Cases
Applewhite v. City of Baton Rouge,
380 So.2d 119 (La. Ct. App. 1979) . . . . . . . . . . . 15
Baker v. McCollan,
443 U.S. 137 (1979). . . . . . . . . . . . . . . . . . . . . . . 13
Bradley v. Village of Univ. Park, II.,
929 F.3d 875 (7th Cir. 2019). . . . . . . . . . . . . . . . . 9
Brady v. Maryland,
373 U.S. 83 (1963). . . . . . . . . . . . . . . . . . . . . . . . 12
Bryan Cty. v. Brown,
520 U.S. 397 (1997). . . . . . . . . . . . . . . . . . . . . 7, 13
Cafeteria and Rest. Workers Union v. McElroy,
367 U.S. 886 (1961). . . . . . . . . . . . . . . . . . . . . . . . 6
Canton v. Harris,
489 U.S. 378 (1989). . . . . . . . . . . . . . . . . . . passim
Connick v. Thompson,
563 U.S. 51 (2011). . . . . . . . . . . . . . . . . . . 7, 11, 12
Flores v. Colo. Dep’t of Corr.,
3 P.3d 464 (Colo. Ct. App. 1999) . . . . . . . . . . . . 15
Jett v. Dallas Indep. Sch. Dist.,
491 U.S. 701 (1989). . . . . . . . . . . . . . . . . . . . . . . . 7
Mary M. v. City of Los Angeles,
814 P.2d 1341 (Cal. 1991). . . . . . . . . . . . . . . . . . 15
Monell v. Dept. of Soc. Serv.,
436 U.S. 658 (1978). . . . . . . . . . . . . . . . . . . passim

iv
Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012). . . . . . . . . . . . . . . . . . . . . . . . 8
New York v. U.S.,
505 U.S. 144 (1992). . . . . . . . . . . . . . . . . . . . . . . . 8
Printz v. United States,
521 U.S. 898 (1997). . . . . . . . . . . . . . . . . . . . . 5, 16
Rizzo v. Goode,
423 U.S. 362 (1976). . . . . . . . . . . . . . . . . . . 6, 8, 10
Sampson v. Murray,
415 U.S. 61 (1974). . . . . . . . . . . . . . . . . . . . . . . . . 6
Savage v. State of Wash.,
899 P.2d 1270 (Wash. 1995) . . . . . . . . . . . . . . . . 15
Upchurch v. State of Haw.,
454 P.2d 112 (Haw. 1969). . . . . . . . . . . . . . . . . . 15
Statutes
34 U.S.C. §30307(e)(2)(A). . . . . . . . . . . . . . . . . . . . . . 8
42 U.S.C. §1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
Other Authorities
1 J.R.R. Tolkein, The Lord of the Rings (1991) . . . . 10
The Federalist No. 39 (James Madison) (Robert
Scigliano ed., 2000) . . . . . . . . . . . . . . . . . . . . . . . . 5

1
INTEREST OF AMICI CURIAE1
Amici curiae are national organizations
representing the interests of local governments. They
have a critical interest in ensuring the maintenance of
the Constitution’s federalist structure, under which
local governments retain their autonomy to conduct
their affairs as they best see fit, so long as they remain
within the Constitution’s substantive parameters.
To that end, amici believe that the Seventh Circuit’s
en banc decision below amounts to an unprecedented
evisceration of that autonomy by morphing 42 U.S.C.
§1983 from a statute protecting the Constitutional
rights of individuals into one that mandates federal
judicial oversight of every aspect of a local
government’s affairs, even if the local government has
not itself committed a Constitutional violation. Given
the importance of preserving the Constitution’s
federalist structure, the Court should intervene and
grant certiorari.
The National Association of Counties (NACo) is the
only national association that represents county
governments in the United States. Founded in 1935,
NACo provides essential services to the Nation’s 3,069
counties through advocacy, education, and research.

1

Amici provided timely notice to both parties of its intent to file
this brief, and both parties provided amici with written consent to
file this brief. No counsel for either party authored this brief in
whole or in part, nor did counsel for either party make any
monetary contribution intended to fund the preparation or
submission of this brief.

2
The National League of Cities (NLC) is the oldest
and largest organization representing municipal
governments throughout the United States. Working in
partnership with 49 state municipal leagues, NLC is
the voice of more than 19,000 American cities, towns,
and villages, representing collectively more than 200
million people. NLC works to strengthen local
leadership, influence federal policy, and drive
innovative solutions.
The U.S. Conference of Mayors (USCM) is the
official nonpartisan organization of all U.S. cities with
a population of more than 30,000 people, which
includes over 1,200 cities at present. Each city is
represented in the USCM by its chief elected official,
the mayor.
The International City/County Management
Association (ICMA) is a nonprofit professional and
educational organization of over 12,000 appointed chief
executives and assistants, serving cities, counties,
towns, and regional entities. ICMA’s mission is to
advance professional local government through
leadership, management, innovation, and ethics.
The International Municipal Lawyers Association
(IMLA) is a non-profit, nonpartisan professional
organization consisting of more than 2,500 members.
The membership is comprised of local government
entities, including cities, counties and subdivisions
thereof, as represented by their chief legal officers,
state municipal leagues, and individual attorneys.
Established in 1935, IMLA’s mission is to advance the
responsible development of municipal law through
education and advocacy by providing the collective

3
viewpoint of local governments around the country on
legal issues before the United States Supreme Court,
the United States Courts of Appeals, and in state
supreme and appellate courts.
INTRODUCTION AND SUMMARY OF THE ARGUMENT
To ensure the Constitution’s federalist structure
remains intact, local governments can only be held
liable for constitutional violations under §1983 when
they themselves inflict such violations; they cannot be
held liable on a respondeat superior theory. See Monell
v. Dept. of Soc. Serv., 436 U.S. 658, 691-95 (1978). The
Court’s review of the Seventh Circuit’s en banc opinion
below is critically needed to reiterate these principles
and preserve that federalist structure.
The Seventh Circuit found that Polk County could
be liable under Monell for one of its correctional officers
raping two of its inmates. Despite admitting that Polk
County’s jail had a policy explicitly prohibiting
correctional officers from sexually assaulting inmates,
that no earlier pattern or practice of such rapes existed
in the jail, and that the correctional officer knew his
training prohibited the rapes, the en banc opinion
found Polk County could be liable on the single-incident
failure-to-train theory mentioned in Canton v. Harris,
489 U.S. 378, 390 (1989). According to the Seventh
Circuit, the jail’s failure to adopt the procedures of the
non-mandatory federal Prison Rape Elimination Act
(PREA) amounted to deliberate indifference under
Monell and Canton.
The Court’s review is urgent in order to clarify the
scope of Monell liability in the context of single-incident

4
failure-to-train claims. The Seventh Circuit’s opinion
has warped §1983 into a mechanism whereby federal
courts can mandate local governments adopt nonbinding federal regulations in practically any area,
thus obviating the basic principles of federalism. The
facts of this case, furthermore, make it an ideal
mechanism for the Court to resolve the inherent
tensions between federalism and Canton’s hypothetical
single-incident failure-to-train claim. Finally, and
further underscoring the important federalism issues
at play in this case, the Seventh Circuit’s opinion
creates a common law tort action out of §1983, a matter
that the States themselves—and not the federal
courts—are best equipped to decide.
ARGUMENT
I.

Absent the Court’s review, the Seventh
Circuit’s decision ensures that federal
courts will have significantly increased
control over municipalities’ daily
operations, thus undermining the
Constitution’s federalist structure.

The Seventh Circuit’s decision undermines the
carefully-crafted power balance between the federal
government and the States by enabling federal courts
to take over local governments and micromanage their
daily operations. This warrants the Court granting
certiorari. As Polk County describes in its petition, the
en banc opinion creates a circuit split and ignores
Monell’s limitations on liability for local governments.
Those limitations on liability are reasonable, fair, and
respectful of federalism. By expanding Monell’s limited
holding into respondent superior liability and holding

5
a local government may be liable for failing to adopt a
specific policy, the lower court decision operates as a
judicial run-around to the prohibition on the federal
government directly regulating local governments by
enabling federal courts to order them to enact such
regulations under the guise of enforcing Constitutional
rights under §1983. This expanded liability will drain
the financial resources of local governments, cause
significant reputation damages to the local entities who
have followed Monell’s actual requirements, and will
further erode the limits of Monell liability beyond the
facts in the Seventh Circuit’s opinion.
A. The federalism issues here are
exceptionally important, as §1983
cannot be used as a vehicle to obviate
the Constitution’s federalist structure.
The Constitution provides for a dual-sovereign
system of government, under which the States (of
which local governments form a part) have surrendered
some of their powers to the federal government while
still retaining their status as sovereign entities. Printz
v. United States, 521 U.S. 898, 918-19 (1997). “[T]he
local or municipal authorities form distinct and
independent portions of the supremacy, no more
subject, within their respective spheres, to the general
authority than the general authority is subject to them,
within its own sphere.” The Federalist No. 39, at 245
(James Madison) (Robert Scigliano ed., 2000), quoted in
Printz, 521 U.S. at 920-21 (1991). It is not surprising,
therefore, that the Court has rejected the notion that
federal judges may compel municipalities to enact
particular policies in the absence of the municipality

6
itself having caused any constitutional violations. See,
e.g., Rizzo v. Goode, 423 U.S. 362, 378-79 (1976). But
that is what the Seventh Circuit has done here: its en
banc opinion imposes respondeat superior liability on
local governments and requires them to adopt specific
policies that are not, of themselves, required under the
Constitution.
Congress carefully wrote what is now §1983 to
ensure that federal courts, in applying it against
local governments, would only do so to vindicate
Constitutional rights, and not use it as a pretext for
compelling municipalities to enact policies or take
actions that, while seemingly good in the abstract, are
not mandated under the Constitution. See Monell, 436
U.S. at 691-95. Relying in part on the Court’s own
federalism rulings, see id. at 673-95, Congress
recognized how, under the Constitution’s federalist
structure, local governments have “traditionally been
granted the widest latitude in the ‘dispatch of [their]
own internal affairs….’” See Sampson v. Murray, 415
U.S. 61, 83 (1974) (quoting Cafeteria and Rest. Workers
Union v. McElroy, 367 U.S. 886, 896 (1961)), quoted in
Rizzo, 423 U.S. at 378-79. Section 1983 is harmonious
with the Constitution’s dual-sovereign structure. It “is
not a ‘federal good government act’ for municipalities.
Rather it creates a federal cause of action against
persons, including municipalities, who deprive citizens
of the United States of their constitutional rights.”
Canton v. Harris, 489 U.S. 395-96 (1989) (O’Connor, J.,
concurring in part and dissenting in part). This ensures
that local governments retain the autonomy necessary
to govern as they best see fit, so long as they stay
within the Constitution’s boundaries and respect the

7
substantive rights it accords to individuals. See Jett v.
Dallas Indep. Sch. Dist., 491 U.S. 701, 734-35 (1989).
Contrary to the Seventh Circuit’s holding, §1983 does
not require local governments to adopt specific policies.
To vindicate these federalism concerns, in Monell
the Court held that §1983 imposes civil liability on
municipalities only for constitutional injuries that
municipalities themselves cause through an unlawful
policy or custom. See Monell, 436 U.S. at 673-95.
Consequently, a local government cannot be held liable
under §1983 on a respondeat superior theory,
notwithstanding the Seventh Circuit’s holding to the
contrary. Allowing respondeat superior liability under
§1983 would do far more than discard the statute’s
plain language—as the Court has long recognized, it
would undermine the Constitution’s federalist
structure. See Monell, 436 U.S. at 673-95. Federal
courts are not—and should not be—empowered to
encroach on the autonomy of local governments via
§1983. See Connick v. Thompson, 563 U.S. 51, 61-62
(2011); Bryan Cty. v. Brown, 520 U.S. 397, 403 (1997);
Canton, 489 U.S. at 391-92.
In upholding Polk County’s liability, the Seventh
Circuit primarily relied on how it had failed to adopt
the PREA in administering its jail despite conceding
that the “PREA is not a constitutional standard.”
(App.31). It further acknowledged that Polk County’s
policies—as well as Wisconsin state law—explicitly
prohibited sexual assault, and that all correctional
officers were explicitly informed of the County’s
categorical prohibition against sexual contact with
inmates. This is a textbook violation of the very

8
federalism principles that Congress sought to uphold in
passing §1983 and that the Court has sought to uphold
in its own precedents.
By holding Polk County to the PREA’s standards,
and not those of the Constitution, the Seventh Circuit
has “engage[d] the federal courts in an exercise of
second-guessing municipal employee-training
programs,” Canton, 489 U.S. 392, a matter “the federal
courts are ill suited to undertake, as well as one
that…implicate[s] serious questions of federalism.” Id.
(citing Rizzo, 423 U.S. at 378-80). Indeed, Congress
itself, in passing the PREA, recognized that it had no
Constitutional authority to mandate that
municipalities adopt it. Instead, Congress conditioned
grants on State and local compliance with certain
standards set forth in the Act. See 34 U.S.C.
§30307(e)(2)(A). This was an appropriate exercise of its
authority under the Spending Clause. See Nat’l Fed’n
of Indep. Bus. v. Sebelius, 567 U.S. 519, 576 (2012)
(“We have long recognized that Congress may use this
power to grant federal funds to the States, and may
condition such a grant upon the States’ ‘taking certain
actions that Congress could not require them to
take.’”). By upholding Polk County’s liability here for
failing to adopt measures outlined in the PREA, the
Seventh Circuit did precisely what Congress knew the
Tenth Amendment, the Constitution’s dual-sovereign
system of government, and this Court’s very own
jurisprudence on federalism prohibited it from doing.
See Monell, 436 U.S. at 673-95; New York v. U.S., 505
U.S. 144, 156-57 (1992) (“The Tenth Amendment…
restrains the power of Congress, but this limit is not
derived from the text of the Tenth Amendment

9
itself….Instead, the Tenth Amendment confirms that
the power of the Federal Government is subject to
limits that may…reserve power to the States.”).
B. The Seventh Circuit’s rationale
extends to every facet of municipal
government.
The Court’s review of the Seventh Circuit’s decision
is urgent, as the decision has implications reaching far
beyond its specific facts. There is no reason why the en
banc opinion’s rationale cannot—indeed, will
not—extend beyond the area of local prison
administration and allow federal courts to supervise
every facet of local government. After all, if a local
government’s failure to adopt a particularized federal
program in the context of prison administration
amounts to a Constitutional violation, why should this
rationale not apply to all areas of a local government’s
day-to-day operations?
For example, a federal court could easily utilize the
en banc opinion to find a local police department
violated a discharged employee’s procedural due
process rights merely because the local police
department did not enact deprivation procedures
identical to those that may be provided by a federal law
enforcement agency, such as the U.S. Marshals Service,
even though the Fourteenth Amendment does not
require such procedures. See Bradley v. Village of Univ.
Park, II., 929 F.3d 875, 907 (7th Cir. 2019) (Manion, J.,
dissenting) (“[I]f the State has provided sufficient postdeprivation remedies, then there is no justification to
supplant the State’s authority and subvert federalism

10
by allowing the plaintiff to pursue a federal due process
claim instead of the State’s provided remedies.”).
Similarly, the Seventh Circuit’s opinion enables a
federal court to hold that a local or state court system’s
failure to adopt the Federal Rules of Civil Procedure or
the Federal Rules of Evidence itself amounts to a due
process deprivation. Such a holding would, of course, be
absurd. See Rizzo, 423 U.S. at 379 (noting that
federalism principles counsel restraint on the part of a
federal court interfering with the operations of state
courts). Nevertheless, it is the natural outcome of the
en banc opinion’s rationale.
In short, and absent the Court’s review, the Seventh
Circuit’s decision will wreak havoc on the ability of
thousands of local governments around the country to
manage their own affairs without the potential of
federal courts intruding and watching their every move
in the spirit of the Eye of Sauron, rendering Monell
practically meaningless. See 1 J.R.R. Tolkein, The Lord
of the Rings 392 (1991).
II.

This case presents an ideal vehicle to
resolve the tension between Canton’s
theoretical single-incident failure-to-train
claim and the federalism principles
underlying Monell’s admonishment against
respondeat superior liability.

So far as amici are aware, the Seventh Circuit’s
opinion is only the second time any federal appellate
court has upheld a §1983 verdict against a local
government on a single-incident failure-to-train theory.
See Canton, 489 U.S. at 390 (“[I]t may happen that in

11
light of the duties assigned…the need for more or
different training is so obvious, and the inadequacy so
likely to result in the violation of constitutional rights,
that the policymakers of the city can reasonably be said
to have been deliberately indifferent to the need.”). The
last time a federal appellate court did so, the Court
granted certiorari to clarify the scope of single-incident
failure-to-train liability. See Connick, 563 U.S. at 54.
But this area of the law remains murky even following
Connick, and the facts of this case present the Court
with the perfect opportunity to bring clarity to the
matter.
This case is unique in that Christensen—the
correctional officer who committed the underlying
violations under the Eighth and Fourteenth
Amendments—explicitly admitted that he knew, from
his training, that raping inmates was wrong before he
committed his terrible actions. (App.105). In addition,
it is undisputed both that the jail’s policies themselves
explicitly prohibited correctional officers from raping
inmates and that there was no prior pattern or practice
of such rapes taking place within the jail. (App.71).
Nevertheless, and paradoxically, the Seventh Circuit
found that the need to ensure correctional officers not
rape inmates was an area where “the need for more or
different training [was] so obvious” in Polk County
despite Christen himself admitting he knew, from Polk
County’s very training, that such conduct was wrong,
and despite nothing like this ever occurring before in
the jail (App.77-84). It is difficult, if not impossible, to
see how “it could be obvious” that there could be a need
for further training, or that such training was
adequate, given the fact that the perpetrator himself

12
admitted to knowing that what he was doing was
wrong, and that he did not require additional training
to know that what he did was illegal and contrary to
Polk County’s policy. (App.105). The Court’s review is
sorely needed to provide clarity in this area.
If it was appropriate for the Court to grant
certiorari in Connick to address the scope of singleincident liability in the context of a prosecutor’s
decision to commit Brady2 violations, it is all the more
appropriate (and urgent) for the Court to grant
certiorari here to address the scope of single-incident
liability in the context of in the context of a correctional
officer’s decision to commit a sexual assault, something
that Polk County’s policy and training had taught him
was illegal. The Brady violations in Connick involved
decision making in an area that of its very nature
required years of legal training. See Connick, 563 U.S.
at 63-68. By contrast, here the decisionmaker himself
admitted he knew, ahead of time, that his decision was
wrong, and that his training explicitly prohibited it.
And as Judge Brennan noted in his dissent from the en
banc opinion below, the decision was one forbidden “by
the law, written policies and training here, as well as
any moral code.” (App.83).
It is nearly impossible to imagine a more ideal fact
pattern under which the Court can resolve the inherent
tension between Canton’s theoretical single-incident
liability and federalism principles. Absent the Court’s
review, this area will remain unclear.

2

See Brady v. Maryland, 373 U.S. 83 (1963).

13
III.

The en banc opinion imposes a
negligence standard upon §1983 claims
under Monell, and in effect turns them
into common law tort claims. It should
be up to the states themselves to
determine whether to allow such claims.

The Seventh Circuit’s en banc opinion effectively
opens the door for the federal judiciary to create new
common law negligence actions under the guise of
§1983, thus interfering in an area the Constitution’s
federalist structure leaves to the determination of state
governments. The Court should grant certiorari to bolt
that door shut.
“Section 1983 imposes liability for violations
protected by the Constitution, not for violations of
duties of care arising out of tort law. Remedy for the
latter type of injury must be sought in state court
under traditional tort-law principles.” Baker v.
McCollan, 443 U.S. 137, 146 (1979). It is precisely the
need to prevent §1983 claims from degenerating into
such tort claims that justifies a heightened standard of
fault beyond mere negligence. See Bryan Cty., 520 U.S.
at 407 (“A showing of simple or even heightened
negligence will not suffice.”). Yet the en banc opinion
ignores all of this, and effectively holds that Polk
County was negligent in failing to prevent its
correctional officer from raping the respondents and
that such negligence amounted to a constitutional
violation.
Nobody denies that what Christensen did to J.K.J.
and M.J.J. was horrendous. (App.4). He has been
convicted of his crimes and is now spending 30 years in

14
prison. (Pet.1). In addition, the jury below found him
personally liable under §1983 for violating J.K.J. and
M.J.J.’s Eighth Amendment rights, awarding each of
them $5.75 million in damages on their claims against
him. (App.110). The Seventh Circuit, furthermore,
quickly and correctly rejected his challenge to that
verdict. (App.14-15). Nor does anybody deny that, as a
general policy goal outside of any Constitutional
requirements, correctional institutions should protect
their inmates from suffering harm at the hand of
others—be they correctional officers or fellow inmates.
But that is not the issue here. Rather, the issue is
whether, given Congress’s concern to uphold the
Constitution’s federalist structure in enacting §1983
and this Court’s longstanding precedent seeking to
vindicate that concern, §1983 can serve as a vehicle for
changing correctional institution’s policies and
practices in the absence of any evidence that such
polies and practices caused a violation of the Eighth
and Fourteenth Amendments. Plainly it cannot, but
absent the Court granting certiorari the Seventh
Circuit’s opinion will result in §1983 doing just that.
While J.K.J. and M.J.J. also brought a negligence
claim under Wisconsin state law against Polk County
(App.3), the district court dismissed that claim after
discovery and a jury trial on the ground that Polk
County was, as a matter of Wisconsin law, immune
from liability on that claim. (App.13, 178-181). As the
district court noted, Wisconsin has immunized local
governments like Polk County from such negligence
claims. (App.178-181). Under our Constitution’s
federalist structure, Wisconsin—along with the other
49 states in the union—is free to mold its tort law as it

15
sees fit. Whether to allow a common law negligence
action against a municipality under facts like this is
exactly the type of matter over which different entities
can—and do—reasonably come to different conclusions,
which is precisely why its resolution is better suited to
state legislatures than to an unelected federal
judiciary.
Many states disagree with Wisconsin and allow
common law tort claims under facts similar to this
case. For example, Colorado has authorized inmates of
correctional centers to bring negligence actions against
correctional facilities for injuries they allegedly suffer
while in custody. See Flores v. Colo. Dep’t of Corr., 3
P.3d 464 (Colo. Ct. App. 1999) (ruling that the Colorado
General Assembly had abrogated sovereign immunity
in actions for injuries arising out of the operation of
correctional facilities). The same can be said for
Louisiana, California, Washington, and Hawaii. See
Applewhite v. City of Baton Rouge, 380 So.2d 119 (La.
Ct. App. 1979) (ruling a city could be liable after a
police officer and a correctional officer forced a detainee
to perform sexual acts on them); Mary M. v. City of Los
Angeles, 814 P.2d 1341 (Cal. 1991) (holding a city could
be liable under respondeat superior for a police officer
raping a detainee); Savage v. State of Wash., 899 P.2d
1270 (Wash. 1995) (ruling the State could be held liable
for its parole officer’s failure to supervise a parolee
after the parolee raped a third party); Upchurch v.
State of Haw., 454 P.2d 112 (Haw. 1969) (ruling that
the State owed a duty of reasonable care to an inmate
who had suffered an attack from another inmate).

16
The Constitution’s federalist structure leaves it to
the States themselves to determine which common law
tort actions are appropriate and which are not. This is
a matter of prudential judgment over which reasonable
disagreements can exist, not a matter of safeguarding
one’s rights under the federal Constitution. Section
1983 addresses the latter situation, not the former. To
hold otherwise and conclude that Monell liability is
satisfied under a negligence standard—as the Seventh
Circuit did—expands §1983 beyond what both
Congress and the Court have concluded are
constitutional boundaries. Left standing, the en banc
opinion will erode the ability of the States and their
local governments to “remain independent and
autonomous within their proper sphere of authority.”
See Printz, 521 U.S. at 928.

17
CONCLUSION
The Seventh Circuit’s opinion renders the federalist
system of government set forth in the Constitution
practically meaningless and invites other circuits to
issue holdings that do the same. To vindicate this
fundamental part of the Constitution’s structure and
foreclose other courts from further weakening it by
following the Seventh Circuit’s lead, the Court should
grant Polk County’s petition for a writ of certiorari.
Respectfully submitted,
JOHN M. REEVES
Counsel of Record
REEVES LAW LLC
3703 Watson Road
St. Louis, MO 63109
(314) 775-6985
reeves@reeveslawstl.com
LISA SORONEN
STATE AND LOCAL
LEGAL CENTER
444 N. Capitol St. NW
Suite 515
Washington, DC 20001
AMANDA KELLAR
INTERNATIONAL MUNICIPAL
LAWYERS ASSOCIATION, INC.
51 Monroe Street, Suite 404
Rockville, MD 20850
Counsel for Amici Curiae

